                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair fair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2003 – March 31, 2004
                                                                         AGENCY PROFILE

President Bush announced the recess              percent, leaving a net spending ceiling of
appointment of Ronald Edward                     $242,632,952 to fund an expected
Meisburg to serve as a Board Member.             ceiling of 1,875 full-time equivalents.
His appointment was effective                    NLRB Headquarters is at 1099 14th
December 23, 2003, to a position that            Street, NW, Washington, DC.
would expire on August 27, 2008.
                                                 In addition to the Headquarters building,
Chairman Robert J. Battista                      employees are located in 51 field offices
administered the oath of office to newly         throughout the country. Three satellite
appointed NLRB Board Member                      offices for the Administrative Law
Meisburg on January 12, 2004. Once               Judges are located in Atlanta, San
again, the NLRB has a full complement            Francisco, and New York. Since
of five members that includes, in                October 2, 2000, field offices included
addition to the above, Board Members             32 Regional Offices, 16 Resident
Peter C. Schaumber, Wilma B. Liebman             Offices, and 3 Subregional Offices.
and Dennis P. Walsh.
                                                 Additional information about the NLRB
The NLRB received an appropriation of            can be found on the Web site
$244,072,983 for Fiscal Year (FY) 2004,          www.NLRB.gov.

less an across-the-board rescission of .59




NLRB OIG Semiannual Report                   2         October 1, 2003 – March 31, 2004
                                     OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                       Kathryn A. Jones, an OIG criminal
The FY 2004 OIG budget is $1,046,300            investigator, accepted a position with the
for operations, of which $210,000 is for        Department of Transportation that was
contract services. In addition to the           effective on November 17, 2003.
Inspector General, the OIG consists of a
Counsel/Assistant Inspector General for         Colleen V. Stovel entered on duty as a
Investigations, Assistant Inspector             staff auditor on January 13, 2004.
General for Audits, a criminal
investigator (position currently vacant),
three auditors, and a staff assistant.




NLRB OIG Semiannual Report                  3         October 1, 2003 – March 31, 2004
                                                                AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued one audit
report, four inspection reports, four issue alerts, and two reports to Congress.

Reports Issued                                   only two of the four Regional Offices
•   We issued Audit Report OIG-AMR-              used an optional field in the Case
41-04-01, Review of the Collyer                  Activity Tracking System (CATS) to
Deferral Process, on March 17, 2004.             monitor when the parties were
This review was conducted to determine           contacted. Some errors existed in the
whether the Regional Offices of the              date filed and date closed fields in each
NLRB are resolving charges deferred              of the four Regional Offices visited.
under Collyer Insulated Wire (Collyer),
192 NLRB 837 (1971), expeditiously               Management generally agreed with the
and to evaluate how the Regional                 findings and three recommendations.
Offices monitor the deferral process.            Management disagreed with our
                                                 conclusion that the NLRB Casehandling
Generally, the Regional Offices                  Manual was inconsistent with the
reviewed did not consistently contact            Agency's policy regarding when reviews
parties to follow up on the status of            of arbitrators decisions are required.
Collyer deferrals in accordance with             Management also disagreed with our
Agency policy, which is every 90 days.           recommendation that signed copies of
Also, Regional Offices did not                   the Collyer deferral letters should be
consistently document actions related to         maintained in the case files. The OIG
Collyer. Proof of service and signed             agreed that other forms of evidence may
copies of the Collyer letters were not           be sufficient and modified the
maintained in the case files in two of the       recommendation to provide the needed
four Regional Offices visited. Also,             flexibility.




NLRB OIG Semiannual Report                   4          October 1, 2003 – March 31, 2004
                                                                         AUDIT PROGRAM

•   We issued Inspection Report                 •   We issued Inspection Report
OIG-INS-30-04-01, Review of Merit               OIG-INS-29-04-02, Section 10(j)
Dismissal Procedures, on October 21,            Filings, on December 24, 2003. We
2003. We conducted this inspection to           initiated this inspection to analyze trends
evaluate the process and basis for              in filing for temporary relief under
Regional Offices issuing merit                  Section 10(j) of the NLRA, specifically
dismissals and to evaluate trends.              whether a recent General Counsel
                                                memorandum achieved the purpose of
GC Memorandum 02-08, Revised                    assuring that all cases warranting interim
Procedure for Merit Dismissals, issued          relief receive full consideration.
September 18, 2002, was intended to
eliminate a disincentive to the use of          The number of cases submitted by the
merit dismissals. The number of                 Regional Offices remained relatively
Regional Offices using merit dismissals         unchanged after the memorandum was
and the number of merit dismissal cases         issued. The General Counsel submitted
appear to have increased significantly          substantially fewer requests for Section
since the memorandum was issued.                10(j) relief to the Board in FY 2003 than
                                                in FY 2001, and the Board denied a
In nearly half of the cases reviewed, the       larger percentage of the General
date of the abeyance letter was                 Counsel’s requests in FY 2003 than in
incorrectly entered into the dismissal          FY 2001 or FY 2002.
letter date field. On October 17, 2003,
Operations-Management issued                    The Agency did not meet either part of
instructions on how to account for merit        the performance measures in FY 2002 or
dismissal cases in CATS, including not          FY 2003. For example, in FY 2003, 50
recording the date of the abeyance letter       percent of the cases closed within 30
in the dismissal letter date field.             days instead of the planned 87 percent.




NLRB OIG Semiannual Report                  5          October 1, 2003 – March 31, 2004
                                                                        AUDIT PROGRAM




•   We issued Inspection Report                •   We issued Inspection Report
OIG-INS-32-04-03, Review of Cellular           OIG-INS-31-04-04, Review of Westlaw
Telephone Usage, on February 2, 2004.          Usage, on March 17, 2004. We initiated
This inspection was an investigative           this inspection to evaluate controls over
effort to determine if the NLRB's              Westlaw and determine whether the
cellular telephones were being abused.         service was used appropriately.


We found, in all but one instance              Agency policies are outdated and do not
involving a contract employee, that the        reflect current practices. Internal
use of the cellular telephones by Agency       controls were inadequate to prevent
personnel was not resulting in                 unauthorized access, particularly after an
unnecessary charges to the Agency. The         employee’s departure. We identified
discovery of abuse by the contract             one user with questionable activity and
employee resulted in a recovery of $27.        referred this for potential investigation.
We also found that by consolidating the
Agency’s cellular telephone service, the       Management stated that they improved
Agency could put $41,250 to better use         procedures concerning employee
over a 3-year period.                          departures and instructed the Library
                                               Section staff to disable Westlaw
The current Agency policy and                  passwords within 48 hours of
procedures do not address the use and          notification of employee departure.
acquisition of wireless communication          Management stated that they have
devices. We suggested that the Agency          deactivated all general user
take the necessary steps to approve the        identifications and will not issue them in
administrative procedures that address         the future. They noted that all new
the use of cellular telephones and             employees needing Westlaw access
wireless e-mail devices.                       would be issued unique passwords.



NLRB OIG Semiannual Report                 6          October 1, 2003 – March 31, 2004
                                                                         AUDIT PROGRAM

•   We released Issue Alert                    •   We released Issue Alert
OIG-IA-04-01, Top 10 Management                OIG-IA-04-02, Partisan Political
Challenges, on December 17, 2003.              Activity, on February 13, 2004. A
The OIG developed a list of what it            management official admitted to wearing
considers to be the most serious               a campaign button while working at the
management challenges facing the               NLRB, a violation of the prohibition on
NLRB.                                          political activity while on duty or in a
                                               Government office building. An
They are: 1. Reduce the Board's                employee may not engage in political
pending caseload; 2. Comply with the           activity while on duty or in a
Privacy Act system notice requirement;         Government office space. Political
3. Finish implementing access controls         activity is any activity that is directed
to the Agency’s information systems; 4.        toward the success or failure of a
Implement an information security              candidate for a partisan political office.
intrusion detection program; 5. Develop,
implement, and test an information             The Agency has made employees aware
technology contingency plan; 6. Collect        of their obligations under the Hatch Act
information related to backpay funds; 7.       through multiple communications and
Implement internal controls needed to          materials. On February 19, 2004, as part
obtain an unqualified opinion on               of the planned implementation of the NO
financial statements; 8. Meet regulatory       FEAR Act, the Agency issued
and statutory reporting due dates for          Administrative Bulletin (AB) 04-10.
government-wide reporting                      One part of the AB provided guidance
requirements; 9. Implement                     on political activity considered to be
e-government initiatives; and 10.              unacceptable for a Federal employee
Identify changes in statutes and               included the wearing of partisan political
regulations relevant to the Agency.            buttons while on duty.




NLRB OIG Semiannual Report                 7          October 1, 2003 – March 31, 2004
                                                                       AUDIT PROGRAM

•   We released Issue Alert                    •   We released Issue Alert
OIG-IA-04-03, Follow up on OIG                 OIG-IA-04-04, Draft FY 2003 Annual
Review of Agency Procedures for the            Performance Report, on March 30,
Collection of Non-tax Delinquent Debt,         2004. The Board has historically had
on March 25, 2004. We identified               clearly written measures to reduce the
actions taken to achieve compliance with       backlog of both representation and
the Debt Collection Improvement Act of         unfair labor practice cases over several
1996 since we issued an inspection             years that were meaningful to the parties
report in February 2002.                       and public and were also a challenge for
                                               the Agency. The Agency intends to
Debts owed to the NLRB increased               replace these measures with a
substantially since our inspection,            calculation comparable to other
particularly in the salary area, and the       measures that, we believe, are more
Agency has not implemented regulations         difficult to understand and easier to
or made delegations of authority for           achieve because difficult cases are often
compromising uncollectable receivables.        excluded.

From October 2002 through December             In December 2003, the OIG identified
2003 the Agency wrote off about                meeting regulatory and statutory due
$11,000 of debt. The Agency has not            dates for government-wide reporting
established procedures for hearing and         requirements as one of the Agency’s top
deciding debtor appeals. No debts have         10 management challenges. The FY
been referred to the Department of             2002 and FY 2003 Annual Performance
Treasury Financial Management System           Reports were not submitted by the due
for cross-servicing. Also, the Agency          dates. The FY 2004 Annual
has generally not charged interest,            Performance Report is due November
penalties, or fees associated with             15, 2004. Management is aware of the
collection of delinquent debt.                 significance of meeting this deadline and
                                               making it a priority.


NLRB OIG Semiannual Report                 8         October 1, 2003 – March 31, 2004
                                                                          AUDIT PROGRAM




•   Pursuant to section 636 of                    •   As required by the Information
Division F, Title VI, of the Consolidated         Quality Law, the Agency and the OIG
Appropriations Act, 2004, Public Law              submitted an Information Quality
108-199, January 23, 2004, we provided            Agency Annual Report to the Office of
a report to the Committees on                     Management and Budget (OMB). The
Appropriations detailing what policies            report noted that during FY 2003 no
and procedures are in place at the NLRB           requests to correct information were
to give first priority to the location of         received by the Agency or the OIG.
new offices and other facilities in rural
areas, as directed by the Rural                   Audit Follow-up
Development Act of 1972.                          Agreed upon actions were not completed
                                                  within 1 year on four audit reports, two
The Agency does not have a written                of which are now closed.
policy giving first priority to location of
new offices in rural areas. The Agency's          •   Review of Information Systems
field office placement practice is based          Security, OIG-AMR-30-00-03, was
on analyzing case filings to achieve the          issued on September 29, 2000. We
most efficient means of getting quickly           reached agreement with management on
to labor disputes. Typically, this results        actions needed to implement the 15
in having field offices in locations that         recommendations made in the report on
are more likely to have labor unrest,             December 27, 2000. Action is
such as in and around major cities or             reportedly completed on 14 of the 15
industrial areas.                                 recommendations.


Agency managers believe that this                 Management purchased and began a
practice is the most cost-effective means         phased deployment of password
of office placement.                              management software in December 2003



NLRB OIG Semiannual Report                    9         October 1, 2003 – March 31, 2004
                                                                        AUDIT PROGRAM

to address access control weaknesses.           •   Audit of Agency Leased Vehicles,
Management plans for complete                   OIG-AMR-38-03-01, was issued on
implementation of the software and              January 24, 2003, and we reached
applicable policies, including mandatory        agreement with management on actions
password changes, by May 1, 2004.               needed to implement the
                                                recommendations on that date. Action
•   Audit of Property Controls Over             reportedly has been completed on six of
ADP Items, OIG-AMR-32-01-03, was                the eight recommendations.
issued on September 27, 2001. We                Management is working to implement
reached agreement with management on            the remaining recommendations by May
actions needed to implement the two             30, 2004. The open recommendations
recommendations made in the report on           consist of evaluating leased vehicle
December 13, 2001. Actions necessary            utilization and eliminating vehicles that
to close this audit were completed by           do not meet minimum guidelines, and
November 14, 2003.                              developing a program to evaluate
                                                controls over leased vehicles.
•   Audit of Travel and Purchase
Cards, OIG-AMR-36-02-02, was issued
on September 13, 2002. We reached
agreement with management on actions
needed to implement the eight
recommendations made in the report on
December 4, 2002. Actions necessary to
close this audit were completed by
March 30, 2004.




NLRB OIG Semiannual Report                 10         October 1, 2003 – March 31, 2004
                                               INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 140 contacts, initiated 13 cases, and closed 15 cases. The investigations
resulted in one retirement, one letter of counseling, and $2,826 in investigative
recoveries. Four cases were referred for prosecution.


                          Case Workload                  Contacts Processed

                    Open (10/1/2003)      15        Received                  140

                    Initiated             13        Initiated Investigation    2

                    Closed                15        Opened Case --              1
                                                    Referred to Agency
                    Open (3/31/2004)      13        Non-Investigative         138
                                                    Disposition


•   Hatch Act. As previously reported,               An OIG investigation was conducted for
OIG initiated an investigation after                 the remaining allegation. That
receiving a complaint alleging that the              investigation substantiated that the
subject was violating the Hatch Act by               subject used his Government e-mail
acting as a treasurer for a partisan                 address and telephone number for a
election campaign and that he was using              social cause in violation of Government
his Government e-mail address and                    regulations and Agency policy. The
telephone number for point of contact                Agency deferred action on the
information for social and nonpartisan               investigative report pending completion
political causes.                                    of the OSC investigation.


The portion of the complaint involving               During this reporting period, the subject
the Hatch Act was forwarded to the U.S.              submitted a retirement request. After the
Office of Special Counsel (OSC), the                 subject’s retirement request was
office with exclusive jurisdiction for               approved, OSC terminated its
Hatch Act investigations.                            investigation. (OIG-I-317)


NLRB OIG Semiannual Report                     11              October 1, 2003 – March 31, 2004
                                                                 INVESTIGATIONS PROGRAM

•   Ethics. OIG initiated this case                review and subsequent investigations we
after receiving a complaint alleging that          found evidence to support allegations
the subject solicited donations from               that four subjects improperly received
outside sources for a retirement                   more transit subsidy than the amount of
reception. The evidence collected                  their eligibility based on his or her
during the investigation substantiated             monthly commuting expenses.
that the subject violated the Standards of
Conduct by engaging in direct and                  OIG reported a combined excess claim
indirect solicitations for a gift from             of $2,799. The Department of Justice
prohibited sources.                                declined prosecution.


The subject engaged in this misconduct             Following the issuance of our
by soliciting law firms that were                  investigative report, the Agency and the
prohibited sources to be on a committee            OIG agreed that in two cases it would be
to solicit funding for the retirement              inequitable to seek the recommended
reception. These law firms then made               reimbursement. This determination was
improper solicitations by requesting               made because Agency policy does not
funding/donations from other law firms             instruct employees on how to calculate
that were also prohibited sources. The             their commuting costs with the use of
amount given by the prohibited sources             transfer passes, and therefore it was not
was $250 each.                                     possible to determine the exact loss to
                                                   the Agency. Although the OIG
The Agency issued a letter of counseling           continues to believe that all four subjects
to the subject. (OIG-I-347)                        engaged in misconduct as reported, the
                                                   investigative recovery may be no more
•   Transit Subsidy Fraud. OIG                     than $1,881.00. (OIG-I-352, 354, 355
initiated several cases after analyzing the        and 356)
employee applications for the Agency’s
transit subsidy program. During that

NLRB OIG Semiannual Report                    12          October 1, 2003 – March 31, 2004
                                                               INVESTIGATIONS PROGRAM

•   Misuse of Property. OIG initiated             One case involved the education
this case after conducting an                     credentials of a subject who obtained a
investigative review of the use of the            degree from a non-accredited university.
Agency’s cellular telephones. The                 The Agency corrected the data element
investigation of this case consisted of           in the personnel system and placed a
interviews and a review of the cellular           memorandum in the subject’s Official
telephone billing statements. This                Personnel File stating that the noted
evidence substantiated that the subject, a        degree was from a non-accredited
contract employee, was abusing an                 institution. The degree was not the basis
Agency cellular telephone by receiving            for any personnel action. (OIG-I-344)
text messages that were not for official
business and that resulted in a charge to         A second case involved a subject who
the Agency.                                       stated on her job application that she
                                                  expected to complete a degree and then
After being confronted with the                   affirmatively claimed the degree a
documentation of the improper usage,              month later on a background
the subject agreed to reimburse the               questionnaire for the Office of Personnel
Agency. The cellular telephone service            Management (OPM). The subject
also agreed to provide a credit to the            provided false information to Security
Agency for a portion of the unofficial            Branch personnel by stating that she had
text messages. (OIG-I-348)                        completed the necessary course
                                                  requirements for graduation. The
•   Education Credentials. OIG                    subject made the false statement 2
initiated several investigations following        months after she was told that she had
an inspection of education credentials of         not completed the courses needed to
Agency personnel in positions other than          graduate. The Agency referred this
attorney and administrative law judge.            matter to OPM. (OIG-I-345)




NLRB OIG Semiannual Report                   13         October 1, 2003 – March 31, 2004
                                                                INVESTIGATIONS PROGRAM




Hotline                                            As appropriate, OIG refers these callers
Employees and members of the public                to the NLRB office; local, state, or
with information on fraud, waste, and              Federal agency; or private resource to
abuse are encouraged to contact OIG. A             provide assistance.
log of calls to a nationwide toll free
                                                   During this reporting period, OIG
number or the office numbers and a log
                                                   received 140 hotline contacts, of which
of mail, e-mail, and facsimile messages
                                                   42 were telephone calls and 108 were in
are maintained. All information
                                                   writing. Two contacts resulted in OIG
received, regardless of the method used,
                                                   investigative cases.
is referred to as HOTLINE contacts.


The information received over the
hotline is the basis for the initial review
for potential investigations. The
information is analyzed to determine if
further inquiry is warranted. Most
HOTLINE contacts are calls from
members of the public seeking help on
an employment related problem or issues
outside OIG and/or Agency jurisdiction.




NLRB OIG Semiannual Report                    14         October 1, 2003 – March 31, 2004
                 LEGISLATION, REGULATIONS, AND POLICY

The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed three pieces of legislation and one policy document.

Legislation                                       General only on the grounds of
We reviewed the following legislation             permanent disability, inefficiency,
and provided input when appropriate.              neglect of duty, malfeasance, or
                                                  conviction of a felony involving moral
S. 1744 and H.R. 3329, the Credit                 turpitude. The legislation would also
Card Abuse Prevention Act of 2003.                allow for direct submission of OIG
This legislation requires the head of each        budget requests to Congress, create the
executive agency that has employees               Council of Inspectors General on
that use purchases and travel charge              Integrity and Efficiency, allow for
cards to establish and maintain                   personnel flexibilities, and change the
safeguards and internal controls over             Semiannual reporting periods.
those cards. The legislation also
requires that an OIG periodically                 S. 153, the Identity Theft Penalty
conduct risk assessments of their                 Enhancement Act. This legislation
agency’s purchase and travel card                 prescribes prison sentences for
programs and to perform periodic audits           knowingly transferring, possessing, or
of cardholders that are designed to               using, without lawful authority, a means
identify potentially fraudulent, improper,        of identification of another person
and abusive uses of travel cards.                 during and in relation to specified felony
                                                  violations. The Act also prohibits a
H.R. 3457, improving Government                   court from certain actions such as
Accountability Act of 2003. This                  placing any person convicted of such a
legislation would amend the IG Act by             violation on probation.
establishing a term of office and
allowing the removal of an Inspector

NLRB OIG Semiannual Report                   15         October 1, 2003 – March 31, 2004
                                                LEGISLATION, REGULATIONS, AND POLICY

Policy                                           financial managers and analysts,
                                                 enterprise architects, program managers,
We reviewed and commented on the
                                                 commercial service providers, and
exposure draft of the Framework for
                                                 software vendors providing insight into
Federal Financial Management
                                                 how the various requirements for
Systems produced by the Joint Financial
                                                 documents dealing with federal financial
Management Improvement Program.
                                                 management systems should be
This document updates the Framework
                                                 integrated.
published in January 1995 and provides
a description of the basic elements of a
model for integrated financial
management systems in the Federal
government. The document is a
reference tool intended for use by




NLRB OIG Semiannual Report                 16          October 1, 2003 – March 31, 2004
                                                        LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
•   The Inspector General is a member             of Counsels to Inspectors General. The
of the Executive Council on Integrity             Counsel was the ECIE representative to
and Efficiency (ECIE), which consists             a committee that revised the Quality
primarily of the inspectors general at the        Standards for Federal Offices of
designated Federal entities in the IG Act.        Inspector General, also known as the
She participated in activities sponsored          “Silver Book,” issued in October 2004.
by the President's Council on Integrity           These standards set forth the overall
and Efficiency (PCIE), which consists             quality framework for managing,
primarily of the Presidentially-appointed         operating, and conducting work in
inspectors general. She joined the Audit          Offices of Inspector General.
Committee in May 2001.
                                                  The Counsel wrote an article that was
The Assistant Inspector General for               published in the Journal of Public
Audits, or designated auditors,                   Inquiry – a semiannual publication of
participated in the Federal Audit                 the PCIE/ECIE. The article, titled
Executives Council, Financial Statement           “Theft and Misuse of Government
Audit Network, Results Act Group,                 Information,” provides a legal analysis
Electronic Records Policy Working                 of prosecuting and investigating the theft
Group, IDEA Users Group, Federal                  and misuse of Government information
Information Security Management Act               for both larceny and conversion under
Working Group, and the IT Roundtable.             18 U.S.C. § 641.



NLRB OIG Semiannual Report                   17         October 1, 2003 – March 31, 2004
                                                                     LIAISON ACTIVITIES

Agency Activities                               General Accounting Office
The Counsel is an advisory member of            The IG Act states that each inspector
the Government Paperwork Elimination            general shall give particular regard to the
Act Committee. During this reporting            activities of the Comptroller General of
period, the committee worked to identify        the United States, as head of the General
the Agency systems that required a              Accounting Office, with a view toward
Privacy Impact Assessment (PIA), as             avoiding duplication and ensuring
required by section 208 of the E-               effective coordination and cooperation.
Government Act of 2002. The OIG                 No reviews of NLRB are currently
prepared a PIA for its case tracking            ongoing.
system and provided it to the committee
to be disseminated as an example.


The committee also continues to work
toward electronic formats for filing
electronic charges and petitions in
Regional Offices.


The OIG Counsel and the Staff Assistant
are members of the African American
History Month planning committee
under the auspices of the NLRB Office
of Equal Opportunity. The theme of the
February 17, 2004, program was
Brown v. Board of Education.




NLRB OIG Semiannual Report                 18         October 1, 2003 – March 31, 2004
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Four cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 20.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. The audit report did not identify any funds that could be put to better use.
                See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the
                reporting period for which no management decision has been made
                by the end of the reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      19           October 1, 2003 – March 31, 2004
                         AUDIT REPORTS BY SUBJECT MATTER

                                                                         Funds To
                                 Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number           Costs          Costs        Costs      Better Use

FIELD INVESTIGATIONS

Review of the Collyer Deferral
Process, OIG-AMR-41-04-01            0             0            0            0




NLRB OIG Semiannual Report               20        October 1, 2003 – March 31, 2004
Table 1                        REPORTS WITH QUESTIONED COSTS

                                                          Dollar Value
                                     Number of    Questioned      Unsupported
                                      Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period            0            0               0

B. Which were issued during the
   reporting period                      0            0               0

       Subtotals (A+B)                   0            0               0


C. For which a management
   decision was made during the
   reporting period                      0            0               0

(i)     Dollar value of disallowed
        costs                            0            0               0

(ii)    Dollar value of costs not
        disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0            0               0




NLRB OIG Semiannual Report                   21   October 1, 2003 – March 31, 2004
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Questioned
                                      Reports       Costs
A. For which no management
   decision has been made by the
   commencement of the period            0            0

B. Which were issued during the
   reporting period                      0            0

       Subtotals (A+B)                   0            0


C. For which a management
   decision was made during the
   reporting period                      1         $57,000

(i)      Dollar value of
         recommendations that were
         agreed to by management         1         $57,000

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0            0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0            0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0            0




NLRB OIG Semiannual Report                   22   October 1, 2003 – March 31, 2004
                        Fraud Waste Abuse -
                        You can stop it!

                        Call the IG HOTLINE
                        800 736-2983

                        Or Write to the
                        Office of Inspector General
                        NLRB
                        1099 14th Street, NW
                        Washington, DC 20570




NLRB OIG Semiannual Report       23      October 1, 2003 – March 31, 2004
